No.
IN THE SUPREME COURT OF THE UNITED STATES

GREGORY BARTUNEK,
Petitioner/
v.
HALL COUNTY, NEBRASKA AND TODD BAHENSKY,
Respondent's.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

' CERTIFICATE OF SERVICE

I, Gregory P. Bartunek, certify that on
lA UU
/ i j /3 d <0? (
I placed a true and correct copy of the enclosed Pet ifeionfor a Writ
Certiorari and Motion for Leave to Proceed in Forma Pauperis in the prison
mailbox, which will be mailed via prepaid 1st class postage to:
Clerk
United States Supremem Court
1 First Street, NE
Washington, DC 20543-0001

Brandy Johnson
Government Law, LLC
8040 Eiger Drive, Suite B
Lincoln, NE 68516

I declare under the penalty of perjury that the foregoing is true
and correct. Executed on Q \ /) f / })oX(

°P

artunek - Petitioner

